August 31, 1998


Mr. James F. Martin

Acting Regional Commissioner

Social Security Administration

P.O. Box 8280

Chicago, Illinois 60680-8280


Dear Mr. Martin:


Enclosed is our final report entitled, "Review of the Illinois Department of Children

and Family Services' Effectiveness as a Representative Payee” (A-05-96-82000).

The objective of our review was to determine whether the Illinois Department of

Children and Family Services (DCFS), as a representative payee, had adequate

procedures to account for benefits received for the children in its care. Specifically, we

focused on whether DCFS: (1) accounts for Social Security Administration (SSA) funds

individually for each beneficiary, (2) monitors the individual accounts for events

reportable to SSA, and (3) submits written reports to SSA as required.


If you wish to discuss the final report, please call me or have your staff contact

Barry Shulman at (312) 353-0331.


                                          Sincerely yours,




                                          Pamela J. Gardiner
                                          Assistant Inspector General
                                           for Audit

Enclosure

cc:

Susan M. Daniels, Deputy Commissioner, DISP

Donna Siegel, Director, MAAPSS

Jess McDonald, Director, Illinois DCFS

           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION



    REVIEW OF THE ILLINOIS
   DEPARTMENT OF CHILDREN
     AND FAMILY SERVICES’
      EFFECTIVENESS AS A
    REPRESENTATIVE PAYEE

  AUGUST 1998    A-05-96-82000




AUDIT REPORT

August 31, 1998


Mr. James F. Martin

Acting Regional Commissioner

Social Security Administration

P.O. Box 8280

Chicago, Illinois 60680-8280


Dear Mr. Martin:


This report presents the results of our audit of the Illinois Department of Children and

Family Services’ (DCFS) effectiveness as a representative payee. The objective of our

review was to determine whether DCFS, as a representative payee, had adequate

procedures to account for Retirement, Survivors and Disability Insurance (RSDI) and

Supplemental Security Income (SSI) benefits received for the children in its care.

Specifically, we focused on whether DCFS: (1) accounts for Social Security

Administration (SSA) funds individually for each beneficiary, (2) monitors the individual

accounts for events reportable to SSA, and (3) submits written reports to SSA as

required.


BACKGROUND

Our review was initiated at the request of SSA due to concerns of whether DCFS was
properly fulfilling its duties as representative payee. SSA’s concerns arose based on a
June 1996 class action lawsuit against DCFS. The plaintiff (a mentally disabled minor)
was awarded SSI benefits in June 1994, and a check in excess of $34,000 for
retroactive benefits was released to DCFS. The lawsuit contends that no benefits were
paid since February 1995 and the child’s account had been depleted except for $1 as
of May 1, 1996. It also contends that injuries sustained by the plaintiff result from the
same systemic practices applied by DCFS to approximately 2,500 disabled children
who receive SSI and for whom DCFS is legally responsible. The plaintiff is seeking
declaratory and equitable relief against DCFS for allegedly: squandering the
beneficiary’s benefits; misappropriating funds, and using them for purposes unrelated
to the beneficiary’s welfare; rendering the beneficiary ineligible for continuing SSI
benefits as a result of financial mismanagement; and leaving the beneficiary without
resources necessary to secure an appropriate living arrangement when he reaches
adulthood and is released from the care and custody of DCFS.
Page 2 - Mr. James F. Martin

Under the foster care program, the Illinois DCFS often applies for RSDI and SSI
benefits on behalf of the children placed in its custody. Once these children become
eligible for benefits, DCFS becomes their representative payee. As the representative
payee, DCFS is responsible for accounting for the benefits received on behalf of the
children in its custody. DCFS is also responsible for: (1) using the benefits received
only for the food, shelter, clothing, medical care, and personal items of the beneficiary;
(2) notifying SSA of any event that will affect the amount of benefits the beneficiary
receives or the right of the beneficiary to continue receiving benefits; (3) submitting to
SSA, upon request, a written report accounting for the benefits received; and
(4) notifying SSA of any change in the representative payee’s circumstances that would
affect performance of the payee responsibilities. A representative payee who has
accumulated savings from the benefits and ceases to serve as payee will be required to
return any benefits and interest earned to SSA for transfer to the new payee.

For the month of December 1996, the Illinois DCFS, acting as representative payee for
5,155 SSA beneficiaries, received $2 million from SSA in RSDI and SSI benefits.
DCFS estimates that, as representative payee, it received approximately $74.4 million
in RSDI and SSI benefits between December 1991 and December 1996.

SCOPE AND METHODOLOGY

To complete our review, we:

•	 Obtained from DCFS two separate listings of beneficiaries who received RSDI and
   SSI benefits as of December 1996. From these listings, we selected a random
   sample of 100 beneficiaries from a population of 5,155 beneficiaries who had trust
   account balances established by DCFS as of December 1996 (see Appendix A).

•	 For the 100 DCFS cases sampled above, we reviewed the beneficiary’s personal
   and payment data recorded in SSA’s records between December 1991 and
   December 1996. The SSA records reviewed included the Master Beneficiary
   Record and the Payment History and Update System record for RSDI cases and the
   Supplemental Security Income Record for SSI cases. Our review was conducted to
   ensure that information contained in the DCFS files was consistent with information
   contained in SSA’s records.

Obtained from SSA a list of beneficiaries with DCFS shown to be the representative
payee as of November 1997. We reconciled the two DCFS December 1996 lists with
the SSA November 1997 list which resulted in a population of 3,615 nonmatching
cases including 1,835 cases on the SSA list only. From this listing, we selected a
random sample of 75 cases to ensure that the children were in DCFS’ custody and that
DCFS properly accounted for SSA benefits (see Appendix B).
Page 2 - Mr. James F. Martin

•    Reviewed relevant DCFS and SSA policies and procedures.

•    Reviewed the State of Illinois’ 1996 Single Audit Report.

•	    Interviewed appropriate SSA and DCFS officials regarding methods of accounting
     for funds.

Our audit was conducted in accordance with generally accepted government

accounting standards. Our audit period was from December 1991 through

December 1996. Our field work was performed in October 1997 in Springfield, Illinois,

and between November 1997 and March 1998 in Chicago, Illinois.


RESULTS OF REVIEW

The Illinois DCFS has adequate procedures to account for RSDI and SSI benefits
received for children in its care. In addition, our review of a randomly selected
statistical sample of DCFS cases, as of December 1996, disclosed that DCFS properly
accounted for SSA funds received on behalf of children for which it acted as
representative payee; monitored individual accounts for events reportable to SSA; and
submitted written reports as required.

AGENCY COMMENTS

SSA considers our report to be thorough and concise. SSA is grateful that we were
able to complete a statistically valid sample despite the delay in obtaining Agency
records. SSA apologized for any inconvenience the delay may have caused. SSA
feels reassured to have data to support its decisions to make DCFS payee for 5,000 of
its beneficiaries and recipients.

                                          Sincerely yours,




                                          Pamela J. Gardiner
                                          Assistant Inspector General
                                           for Audit
APPENDICES

                                                                        APPENDIX A


    Statistical Sampling Methodology –

 DCFS Lists of Beneficiaries, and Review of

         DCFS Accounting System


STATISTICAL SAMPLING METHODOLOGY

Our population consists of Social Security Administration (SSA) Retirement, Survivors
and Disability Insurance (RSDI) and Supplemental Security Income (SSI) beneficiaries
in the custody of the Illinois Department of Children and Family Services (DCFS) as of
December 1996. Two listings comprised of RSDI and SSI beneficiaries were provided
by DCFS. The two combined listings resulted in a population of 5,155 cases, including
4,863 cases listed as active, and 292 cases listed as inactive.

We used a stratified sample design to randomly select 150 cases from DCFS’ list
(100 active and 50 inactive accounts). We reviewed 50 active and 50 inactive cases
and found no instances where DCFS allowed the beneficiary’s account to exceed the
resource limit. We decided to limit our review to 100 cases after completing our
examination of DCFS’ accounting system. (See below)

                                 Strata 1       Strata 2        Total
             Strata Name
         Active        Inactive        Total
                                  Cases          Cases
             Population
              4,863
           292
         5,155

             Size

             Sample
                    100
            50
             150

             Size

             Sample Cases
               50
            50
             100

             Reviewed

             Number of
               None
          None
          None

             Errors

             Population
        $1,921,789
      $100,372
    $2,022,162

             Dollars

             Error
                   None
          None
          None

             Dollars





                                         A-1

For the 100 cases sampled, SSA paid $863,373 during our audit period

(December 1991 through December 1996) to DCFS. Our review of the 100 DCFS

cases resulted in no errors to project to the population of 5,155 SSA beneficiaries. At

the 90 percent confidence level, we estimate the population contains no more than a

5 percent error rate.


REVIEW OF DCFS ACCOUNTING SYSTEM

We interviewed DCFS Trust Accounts Unit staff to determine their duties and
responsibilities. They are responsible for setting up new bank accounts; setting up new
cases on the system; posting receipts; reporting changes in events to SSA; making
adjustments to bank account after disbursements; closing out bank accounts, manual
postings, etc. We found them to be very knowledgeable of SSA representative payee
policies and procedures. We also reviewed the Children’s Accounts Unit policies and
procedures manual. This manual provided a complete description of the DCFS
accounting process.

DCFS uses several interfacing online systems, including the Trust System (TS) and the
Child, Youth Centered Information System (CYCIS) to track and report accounting and
case management information. The TS, implemented in 1980, performs accounting
functions associated with the maintenance of individual trust system files. The TS
maintains each child’s receipt and payment history and allows online inquiry on trust
amounts paid or to be paid. The Children’s Accounts Unit staff use the system to post
receipts and set up new accounts. The payment history data is updated by the data
processing staff on a monthly basis. The payment disbursement tape is downloaded
onto the TS and individual payments are recorded to the appropriate client record
according to the client identification number. The CYCIS, implemented in July 1982, is
used to record client specific and eligibility data submitted by the caseworker staff. The
CYCIS reports the client’s status in terms of current living arrangements, service plan
status, pending events, and goal achievement. It contains the client data base which is
accessed by the other DCFS systems. It also provides automatic reminders such as
review dates and advance notice of court hearings.




                                           A-2

                                                                                  APPENDIX B


     Statistical Sampling Methodology - SSA

                List of Beneficiaries


We obtained a list from the Social Security Administration (SSA) of all Retirement,
Survivors and Disability Insurance (RSDI) and Supplemental Security Income (SSI)
beneficiaries with the Department of Children and Family Services (DCFS) identified as
representative payee as of November 1997. We sorted the SSA list and eliminated all
terminated cases. The updated list included 5,210 current beneficiaries and
beneficiaries who did not receive a regular benefit check at this time. We reconciled
the new SSA November 1997 list with the DCFS December 1996 list and compiled a
complete population of 3,375 cases. Our reconciliation also resulted in a population of
3,615 nonmatching cases, including 1,835 cases only on the SSA list and 1,780 cases
only on the DCFS list.


                CASES                MATCHING          NONMATCHING             TOTAL
            SSA                        3375                1835                 5210
            DCFS                       3375                1780                 5155
            Combined Total             3375                3615

•	 Originally, we planned to perform a 100 percent review of both DCFS and SSA
   nonmatching cases as of December 1996. However, due to the delay in obtaining
   the population of beneficiaries in DCFS custody from SSA, our comparison of the
   DCFS and SSA lists resulted in a larger number of nonmatching cases.1 As such,
   we decided to perform a random sample. Using a stratified sample design, we
   randomly sampled 75 of the 1,835 nonmatching cases from the SSA list. We only
   sampled SSA nonmatching cases to ensure that SSA paid benefits to beneficiaries
   who were in DCFS custody. We also ensured that DCFS properly accounted for




1
  Data requested from SSA was not obtained until November 1997. SSA data was current as of
November 1997 and DCFS data was current as of December 1996. Our reconciliation of SSA and
DCFS lists resulted in a large number of nonmatching cases because SSA’s data was not obtained in a
timely manner.


                                                B-1

•	 SSA benefits. Our review of 75 of the 1,835 nonmatching cases resulted in no
   errors. At the 90 percent confidence level, we estimate the population contains no
   more than a 3 percent error rate.

                                                     SSA
                                                 NONMATCHING
                         STRATA NAME                CASES
                       Population Size                   1,835
                       Sample Size                          75
                       Number of Errors                  None
                       Error Dollars                     None




                                          B-2

                                                                    APPENDIX C


         MAJOR REPORT CONTRIBUTORS


Office of the Inspector General

   Roger Normand, Director, Northern Program Audit Division


   Barry Shulman, Deputy Director, Northern Program Audit Division, Chicago


   Lorrie Clement, Auditor

                   APPENDIX D


AGENCY COMMENTS

